Service List
HollyFrontier Cheyenne Refining, LLC, et al.
v.
Renewable Fuels Association, et al.
No. 20-472
Peter D. Keisler
Ryan C. Morris
Sidley Austin LLP
1501 K Street, N.W.
Washington, D.C. 20005
(202) 736-8000
pkeisler@sidley.com
rmorris@sidley.com
Counsel for Petitioners HollyFrontier Cheyenne Refining, LLC, HollyFrontier Refining &
Marketing, LLC, HollyFrontier Woods Cross Refining, LLC, and Wynnewood Refining Co., LLC
Matthew W. Morrison
Pillsbury Winthrop Shaw Pittman
1200 Seventeenth Street, N.W.
Washington, D.C. 20036
(202) 663-8000
matthew.morrison@pillsburylaw.com
Counsel for Respondents Renewable Fuels Association, American Coalition for Ethanol, National
Growers Association, and National Farmers Union
Elizabeth B. Prelogar, Acting Solicitor General
United States Department of Justice
950 Pennsylvania Avenue, NW
Washington, D.C. 20530-001
(202) 514-2217
SupremeCtBriefs@USDOJ.gov
Counsel for Respondent Environmental Protection Agency

